AUDIT OF THE OFFICE OF JUSTICE PROGRAMS 

   RECOVERY ACT GRANT AWARDED TO

       THE CHIPPEWA CREE TRIBE,

  ROCKY BOY’S RESERVATION, MONTANA



        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-60-12-016

               July 2012

 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS RECOVERY

  ACT GRANT AWARDED TO THE CHIPPEWA CREE TRIBE 

        ROCKY BOY’S RESERVATION, MONTANA


                         EXECUTIVE SUMMARY



      The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Justice Programs (OJP), Bureau of Justice Assistance
(BJA), Grant No. 2009-ST-B9-0098, totaling approximately $12.4 million,
awarded to the Chippewa Cree Tribe (CCT) of the Rocky Boy’s Reservation,
Montana. This grant was awarded under the American Recovery and
Reinvestment Act of 2009 (Recovery Act), Correctional Facilities on Tribal
Lands Discretionary Grant Program. The award start date was July 1, 2009,
with an end date of June 30, 2012.

       OJP, a component of the U.S. Department of Justice, provides
innovative leadership to federal, state, local, and tribal justice systems, by
disseminating state-of-the art knowledge and practices across America, and
providing grants for the implementation of these crime-fighting strategies.
According to OJP, because most of the responsibility for crime control and
prevention falls to law enforcement officers in states, cities, and
neighborhoods, the federal government can be effective in these areas only
to the extent that it can enter into partnerships with these officers.
Therefore, OJP does not directly carry out law enforcement and justice
activities. Instead, OJP works in partnership with the justice community to
identify the most pressing crime-related challenges confronting the justice
system and to provide information, training, coordination, and innovative
strategies and approaches for addressing these challenges.

       The BJA, a component of OJP, provides leadership and assistance to
local criminal justice programs that improve and reinforce the nation’s
criminal justice system. The BJA’s goals are to reduce and prevent crime,
violence, and drug abuse and to improve the way in which the criminal
justice system functions. In order to achieve such goals, the BJA programs
illustrate the coordination and cooperation of local, state, and federal
governments. The BJA works closely with programs that bolster law
enforcement operations, expand drug courts, and provide benefits to safety
officers.

      The purpose of the Recovery Act Correctional Facilities on Tribal Lands
Discretionary Grant Program is to assist tribes in cost effectively constructing
and renovating correctional facilities associated with the incarceration and

                                       i
rehabilitation of juvenile and adult offenders subject to tribal jurisdiction. In
addition, this funding allows tribes to explore community-based alternatives
to help control and prevent jail overcrowding due to alcohol and other
substance abuse. The BJA administers the Correctional Facilities on Tribal
Lands Discretionary Grant Program in coordination with the Bureau of Indian
Affairs and the Office of Juvenile Justice and Delinquency Prevention.

      The Rocky Boy’s Reservation was established by executive order on
September 7, 1916, and is located in north central Montana, approximately
35 miles south of Havre, Montana. The US-Canadian border is
approximately 90 miles north of the reservation. Rocky Boy’s Agency is the
hub of all reservation activity and serves as headquarters for the Chippewa
Cree Tribe. By Congressional Act, approximately 55,000 acres of the
reservation were established from the old Fort Assiniboine Military
Reservation.

       The CCT used the Recovery Act Correctional Facilities on Tribal Lands
Discretionary Grant Program to construct the Chippewa Cree Tribal Justice
Center, which will house Adult Corrections, Juvenile Detention, and the Law
Enforcement Departments. Prior to the year 2000, the tribe was advised
that its current adult detention facility was being closed for health and safety
reasons.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and accomplishments,
and (11) monitoring of subgrantees and contractors. We determined that
the areas of property management, program income, and monitoring of
subgrantees were not applicable to this grant.

       Our audit concentrated on, but was not limited to, the period from the
grant award date on July 1, 2009, through September 30, 2011. As of
September 30, 2011, the CCT had drawn $7,886,643 of the $12,374,177
awarded under the grant award covered by our audit. We examined the
CCT's accounting records, financial and progress reports, and operating
policies and procedures and found:



                                        ii
  •	 Detailed procedures for most grant fund administration processes were
     unavailable.

  •	 Documentation provided did not support the drawdowns and the

     general ledger did not match the amounts drawn.


  •	 Some support for transactions, such as the Applications and
     Certification for Payment, were missing dates or one of the required
     signatures.

  •	 The supporting documents for Chippewa Cree Construction
     Corporation’s portion of the Application and Certification for Payment
     requests were not included in the paperwork submitted for
     reimbursement from the grantee as required.

  •	 Supporting documentation for the Federal Financial Reports FFRs were
     not available and the general ledger did not match the amounts
     reported.

  •	 Supporting evidence for compliance with the special condition
     concerning bid guarantee, performance, and payment bonds was not
     available.

      We provide four recommendations to address these issues, which are
discussed in detail in the Findings and Recommendations section of the
report. Our audit objectives, scope, and methodology are discussed in
Appendix I.




                                     iii
                               TABLE OF CONTENTS


INTRODUCTION ........................................................................ 1

     Background.......................................................................... 2

          Program Background ....................................................... 2

          The Chippewa Cree Tribe of the Rocky Boy’s Reservation ..... 3

     Our Audit Approach............................................................... 3

FINDINGS AND RECOMMENDATIONS........................................ 5

     Internal Control Environment ................................................. 5

          Single Audit.................................................................... 5

          Financial Management System.......................................... 6

     Drawdowns .......................................................................... 7

     Grant Expenditures ............................................................... 7

          Transaction Testing ......................................................... 7

          Personnel Costs .............................................................. 9

     Budget Management and Control ............................................ 9

     Matching Costs ....................................................................10

     Indirect Costs ......................................................................11

     Financial Status Reports and Progress Reports.........................12

          Financial Status Reports..................................................12

          Progress Reports............................................................14

          Quarterly Recovery Act Reports .......................................15

     Compliance with Grant Requirements .....................................16

     Program Performance and Accomplishments ...........................16

     Conclusion ..........................................................................17

     Recommendations ...............................................................18

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ........ 19

APPENDIX II: CHIPPEWA CREE TRIBE RESPONSE

  TO THE DRAFT REPORT....................................................... 21

APPENDIX III: OJP RESPONSE TO THE DRAFT REPORT .......... 24

APPENDIX IV: OIG ANALYSIS AND SUMMARY OF

  ACTIONS NECESSARY TO CLOSE REPORT ........................... 26

 AUDIT OF THE OFFICE OF JUSTICE PROGRAMS RECOVERY

  ACT GRANT AWARDED TO THE CHIPPEWA CREE TRIBE 

        ROCKY BOY’S RESERVATION, MONTANA


                            INTRODUCTION


      The Office of the Inspector General, Audit Division, has completed an
audit of the Office of Justice Programs (OJP), Bureau of Justice Assistance
(BJA), Grant No. 2009-ST-B9-0098, totaling $12,374,177, awarded to the
Chippewa Cree Tribe (CCT) of the Rocky Boy’s Reservation, Montana. This
grant was awarded under the American Recovery and Reinvestment Act of
2009 (Recovery Act), Correctional Facilities on Tribal Lands Discretionary
Grant Program. The details related to this award are shown in Exhibit 1.

EXHIBIT 1: GRANT AWARDED TO THE CHIPPEWA CREE TRIBE
                             AWARD          AWARD
     GRANT AWARD           START DATE      END DATE      AWARD AMOUNT
   2009-ST-B9-0098         07/01/2009     06/30/2012    $ 12,374,177
                                              Total:    $ 12,374,177
Source: Grants Management System

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and accomplishments,
and (11) monitoring of subgrantees and contractors. We determined that
the areas of property management, program income, and monitoring of
subgrantees were not applicable to this grant.




                                     1

Background

       OJP, a component of the U.S. Department of Justice, provides
innovative leadership to federal, state, local, and tribal justice systems, by
disseminating state of the art knowledge and practices across America, and
providing grants for the implementation of these crime-fighting strategies.
According to OJP, because most of the responsibility for crime control and
prevention falls to law enforcement officers in states, cities, and
neighborhoods, the federal government can be effective in these areas only
to the extent that it can enter into partnerships with these officers.
Therefore, OJP does not directly carry out law enforcement and justice
activities. Instead, OJP works in partnership with the justice community to
identify the most pressing crime-related challenges confronting the justice
system and to provide information, training, coordination, and innovative
strategies and approaches for addressing these challenges.

       The BJA, a component of OJP, provides leadership and assistance to
local criminal justice programs that improve and reinforce the nation’s
criminal justice system. The BJA’s goals are to reduce and prevent crime,
violence, and drug abuse and to improve the way in which the criminal
justice system functions. In order to achieve such goals, the BJA programs
illustrate the coordination and cooperation of local, state, and federal
governments. The BJA works closely with programs that bolster law
enforcement operations, expand drug courts, and provide benefits to safety
officers.

Program Background

       The purpose of the Recovery Act Correctional Facilities on Tribal Lands
Discretionary Grant Program is to assist tribes in cost effectively constructing
and renovating correctional facilities associated with the incarceration and
rehabilitation of juvenile and adult offenders subject to tribal jurisdiction. In
addition, this funding allows tribes to explore community-based alternatives
to help control and prevent jail overcrowding due to alcohol and other
substance abuse. The BJA administers the Correctional Facilities on Tribal
Lands Discretionary Grant Program in coordination with the Bureau of Indian
Affairs and the Office of Juvenile Justice and Delinquency Prevention.




                                       2

The Chippewa Cree Tribe of the Rocky Boy’s Reservation

      The Rocky Boy’s Reservation was established by executive order on
September 7, 1916. The CCT of the Rocky Boy's Indian Reservation was
organized in accordance with the Indian Reorganization Act of 1934, that
was later amended in 1935, in which the tribe gained federal recognition as
the Chippewa-Cree Indians of the Rocky Boy's Reservation, Montana.

      The Chippewa Cree Business Committee (tribal council) is the
governing body of the tribe. The eight council members and chairman are
elected at large and serve four years on staggered terms. The tribe elected
to 'compact' the Bureau of Indian Affairs and Indian Health Service programs
under Title IV of the P.L. 93-638 Act. The historical act allowed tribes the
opportunity to determine their priorities and to become truly self-governing.
In addition, it allowed the tribe to exercise the inherent tribal sovereignty of
the Chippewa Cree Nation.

      The reservation is located in north central Montana, approximately 35
miles from Havre, Montana. The US-Canadian border is approximately 90
miles north of the reservation. Rocky Boy’s Agency is the hub of all
reservation activity and serves as headquarters for the CCT. By
Congressional Act, approximately 55,000 acres of the reservation were
established from the old Fort Assiniboine Military Reservation.

      The CCT used the Recovery Act Correctional Facilities on Tribal Lands
Discretionary Grant Program to construct the Chippewa Cree Tribal Justice
Center to house the Adult Corrections, Juvenile Detention, and the Law
Enforcement Departments. Prior to the year 2000, the tribe was advised
that their current adult detention facility was being condemned for health
and safety reasons.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs (OJP)
Financial Guide and the award documents.

      Our audit concentrated on, but was not limited to, the award of the
grant on July 1, 2009, through September 30, 2011. This was an audit of
Recovery Act, Correctional Facilities on Tribal Lands Discretionary Grant
Program Grant No. 2009-ST-B9-0098.



                                       3

      In conducting our audit, we performed sample testing of grant
expenditures, reviewed the timeliness and accuracy of Financial Reports and
Progress Reports, evaluated performance related to grant objectives,
examined operating policies and procedures, and reviewed the internal
controls of the financial management system. As of September 30, 2011,
the CCT had drawn $7,886,643 of the $12,374,177 awarded under the
grant.

     The results of our audit are discussed in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                     4

                       FINDINGS AND RECOMMENDATIONS

       We evaluated the general ledger of the Chippewa Cree Tribe
       (CCT) and found the transactions recorded were generally
       accurate. However, we found that detailed procedures for most
       grant fund administrative processes were not maintained,
       documentation provided by CCT did not support the drawdowns,
       and documents, such as the Application and Certification for
       Payment, were missing information such as dates and
       signatures. Also, supporting documents for the Chippewa Cree
       Construction Corporation’s (C4) requests for payment were not
       included in the Application and Certification for Payments.
       Additionally, the documentation provided by CCT did not support
       the information presented in the Financial Status Reports and
       Federal Financial Reports (FSR/FFRs), and did not provide
       evidence of meeting a special condition.

Internal Control Environment

      To assess the CCT’s risk of non-compliance with laws, regulations,
guidelines, and terms and conditions of the grant, we reviewed Single Audit
Reports, reviewed policies and procedures, and interviewed CCT staff.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
the CCT is required to perform a single audit annually. We obtained and
reviewed the most recent single audit, which was for the fiscal year ending
September 30, 2010. 1

       The Single Audit report contained one finding related to the grant
award concerning the internal controls over manufactured goods purchased
with American Recovery and Reinvestment Act funds. According to the
Recovery Act award requirements for the construction of a building, all iron,
steel, and manufactured goods are required to be produced in the United
States. Since CCT did not have any policies or procedures to ensure that

       1
           The CCT received two opinions in its single audit, an unqualified opinion for its
“governmental activities and funds” and an adverse opinion concerning its “aggregate
discretely presented component units, the business-type activities, and each major enterprise
fund.” The adverse opinion occurred because the CCT did not include all component units in
its financial statements as required (C4 had not included its financial reports). As a result, the
CCT’s overall financial condition could not be determined.

                                                5

this provision was followed, the auditors considered this a finding. This
finding was later remedied and the CCT was able to provide us with signed
certifications from its vendors and contractors ensuring that they were in
compliance.

      The audit report also contained an internal control finding concerning
the lack of segregation of duties, specifically, bank reconciliations were
prepared by the same employees that prepared deposits, received cash and
prepared entries for the receipt of cash; accounts receivable sub-ledgers not
being reconciled to the trial balance in a timely manner; and employee loans
not being properly approved. We interviewed finance personnel and
determined that CCT had developed practices to adequately separate duties
related to bank reconciliations. However, as detailed in the following
section, CCT had not developed formal written procedures for performing the
reconciliations and other administrative processes.

Financial Management System

      In addition to reviewing previous single audits, we also reviewed the
CCT’s financial management system to assess risk. We performed a limited
review of the grantee’s record keeping, procurement, receiving, payment,
and payroll procedures, and no findings were noted.

      We determined that the CCT has general policies and procedures that
provide guidelines in the preparation of accurate and timely financial reports
and internal control system standards. However, we found that CCT did not
have detailed procedures outlining systematic instructions for most grant
fund administration processes such as performing bank reconciliations and
accounts payable. To illustrate the issue, while at the audit site we were
informed that requested documents were unavailable because the assigned
employee was not present. As a best practice, we believe each position
should have written detailed instructions as to job responsibilities, duties,
and step-by-step procedures to ensure that another employee could perform
the duties of the position if the assigned employee is unable to do so. Since
the CCT does not have these instructions, this is an internal control issue.
We recommend that CCT develop and implement specific procedures for all
financial tasks related to accounting for federal funds.




                                      6

Drawdowns

       According to the OJP Financial Guide (2009), “grant recipient
organizations should request funds based upon immediate
disbursement/reimbursement requirements. Recipients should time their
drawdown requests to ensure that federal cash on hand is the minimum
needed for reimbursements to be made immediately or within 10 days.”
Officials at the CCT stated that drawdowns were based on advance funding
since the Tribe does not typically have enough cash on hand to pay large
construction expenditures. According to the CCT Grants Manager, the
advance drawdowns were expensed within 10 days of receipt, which is
within the parameters outlined in the OJP Financial Guide. However, we
were unable to verify this process because the documentation provided by
CCT did not reconcile to each drawdown. Therefore, we could not verify the
accuracy of individual drawdowns as compared to recorded expenditures.

      As a result, we reviewed the accounting records through
September 30, 2011 and compared the actual expenditures to the
drawdowns for the grant. As shown in Exhibit 2, based on the summary of
general ledger revenues and expenditure records provided by CCT, we
determined that the overall expenditures were greater than the drawdowns,
so there were no excess draws.

Exhibit 2: Drawdowns vs. Actual Expenditures
                                                     DIFFERENCE BETWEEN
                                                     THE AMOUNT DRAWN
  TOTAL AMOUNT DRAWN            TOTAL ACTUAL        DOWN AND THE ACTUAL
           DOWN                 EXPENDITURES            EXPENDITURES
        $7,886,643               $7,886,862                 $219
Source: BJA and the CCT

      Because we were unable to verify the accuracy of the drawdowns, we
recommend that the OJP take steps to ensure drawdowns submitted by CCT
are accurate and properly supported.

Grant Expenditures

Transaction Testing

      According to the OJP Financial Guide, the grantee is required to
maintain supporting documentation for all grant related expenditures. Based
on the accounting records for Grant No. 2009-ST-B9-0098 we selected a
sample of 25 transactions for testing, including 100 percent of the "Other


                                    7

Services" account, which covered the construction contract transactions. In
total, we tested $7,379,515 of the $7,886,862 charged to the grant as of
September 30, 2011, or 93.6% of the total expenditures. We evaluated the
general ledger of the CCT and found the transactions reconciled to the
supporting documentation.

       The procedure used by the C4, the primary contractor, to obtain
payment was to submit an Application and Certification for Payment to the
CCT. 2 This document was prepared by the engineering and architectural
contractor as part of its contractual obligations regarding oversight authority
of the construction project with CCT. Each month the two contractors
reviewed the Continuation Sheet of the Application for Payment, which lists
the activities and the valuations, to discuss and reach agreement on
percentages of completion for the various activities of the construction
contract. They used the previous month’s continuation sheet and annotated
in red the changes to be submitted with the next Application and
Certification for Payment. Payments were calculated based on the
percentage of the work completed multiplied times the scheduled valuation,
minus the amount of any previous payments based on prior percentages of
completion. Items listed on the continuation sheet, performed by
subcontractors, were documented with attached invoices.

      We did not identify questioned costs in our transaction testing.
However, we discovered two issues that we believe should be addressed by
CCT. First, we observed some instances where documents, such as the
Application and Certification for Payments, were missing dates or one of the
signatures. However, we were able to verify the costs were authorized and
did not question those transactions. CCT acknowledged these and stated it
would take steps to ensure all paperwork was completed properly, and the
Grants Manager is now using checklists to improve and ensure accuracy.

      Secondly, there was no supporting documentation for the C4 portion of
the total cost on the Application and Certification for Payment Continuation
Sheets. C4’s portion was based on the percentage of work that was
completed. We brought this to the attention of the Contractor’s Project
Administrator who stated these Application and Certification for Payment
Continuation Sheets, marked up with changes from the previous submission,
are kept by the engineering and architectural contractor’s main office and
are not included as part of the submitted Application and Certification for
Payment paperwork package. The Project Administrator did not provide a
specific explanation why a copy of the marked up continuation sheet was not
      2
         The Chippewa Cree Construction Corporation (C4) is the primary contractor, owned
by the CCT, and was approved as the sole source contractor for this program.


                                           8

included in the support documents. Furthermore, CCT had no explanation
for not requiring the copy of the marked up continuation sheet other than it
relied on the contractor for the correct information in the Application and
Certification for Payment. However, we reviewed the most recent annotated
continuation sheets and verified that they reconciled with C4’s portion of the
costs. As a result, we did not question those transactions. To ensure future
costs are readily supported, the contractor agreed to include documentation
for total costs in all future requests for payment.

Personnel Costs

      The approved budget included 50 percent of the cost of the Project
Director for 30 months. These personnel costs were budgeted as part of the
CCT’s matching requirement. However, there were no personnel costs paid
with grant funds.

Budget Management and Control

     The approved budget for the grant award called for a total budget of
$13,749,337 with $1,375,160 of this amount provided as a match by CCT.
We compared the grant budget to the actual costs as shown in Exhibit 3 and
determined that the actual costs as of September 30, 2011, are within the
parameters approved in the grant budget.




                                      9

Exhibit 3: Grant Budget vs. Actual Costs
                                 ORIGINAL GRANT
         COST CATEGORY               BUDGET                             ACTUAL COST
 Personnel                       $     101,886                         $       -
 Fringe Benefits                        32,593                                 -
 Travel                                  8,600                               7,205
 Equipment                           1,744,200                                 -
 Supplies                                -                                     -
 Construction                        9,377,114                           6,369,219
 Contract                              778,120                             755,050
 Other                                 456,885                                 157
 TOTAL DIRECT COSTS                 12,499,398                           7,131,631
 Indirect Costs (Administration)     1,249,939                             755,231
 TOTAL                           $13,749,337                           $7,886,862
 FEDERAL FUNDS                   $12,374,177                           $7,886,862
 LOCAL MATCH                     $ 1,375,160                           $      -3
Source: OJP and the CCT.

Matching Costs

      The approved budget included a non-federal match requirement of
approximately 10 percent as shown in Exhibit 3. The Final Financial
Clearance Memorandum stated that the “match is not required but
necessary for the completion of the project. Therefore, the non-federal
share that has been incorporated in the approved budget is mandatory and
subject to audit.”

       According to the OJP Financial Guide (2009), "Matching contributions
need not be applied at the exact time or in proportion to the obligations of
the Federal funds. However, the full matching share must be obligated by
the end of the period for which the Federal funds have been made available
for obligation under an approved program or project." Since the award end
date of June 30, 2012 had not yet been reached prior to the completion of
our fieldwork, and since CCT had not recorded any matching costs, we were
unable to audit matching requirements. The approved budget for matching
is shown in Exhibit 4.




       3
         Since no matching costs were recorded in CCT’s records at the time of our fieldwork,
we could not determine the amount of any match that has been contributed as of
September 30, 2011.

                                             10

Exhibit 4: Matching Budget
                          ITEM                                 MATCH
Personnel
     1. Project Director                                   $    101,886
Fringe Benefits
     1. Rate is 31.99% of personnel expenses                     32,593
Equipment
     1. Permanently Affixed Furniture                            70,000
     2. Computer/Printers (hardware/software)                   150,000
     3. Communications Equipment                                200,000
     4. Contingency @ 2%                                          8,400
Construction/Site Development
      1. Land Lease                                              45,500
      2. Geotechnical Investigation Allowance                     3,000
      3. Contingency at 3%                                        1,455
Other Costs
     1. TERO Fees                                               183,618
     2. Executive Level Planning/PONI Team                       84,000
Administrative costs
     1. Administrative costs                                    494,708
TOTAL MATCHING                                             $ 1,375,160
Source: Grants Management System and the CCT.

Indirect Costs

      We determined that indirect costs of $1,249,939 were approved in the
grant budget as administrative expenses in CCT’s accounting records and
are calculated as a percentage of total direct costs.

      The CCT had an approved federal government indirect cost rate of
22.14 percent but the grantee was approved to use a lesser rate of 10
percent for this grant. As shown in Exhibit 5, the total amount of direct
costs were $12,499,398, and 10 percent of this amount is $1,249,939.
According to the grant budget, $755,231 of this amount will be provided via
federal funds with the remaining $494,708 contributed by the grantee as a
match. As of the start of fieldwork, CCT had expensed a total of $755,231
of the approved $1,249,939.




                                       11

Exhibit 5: Indirect Costs

  Total Direct                                                          Amount of
     Costs                                       Amount of            Indirect Costs
  approved in          Total Indirect          Indirect Costs          to be paid by
   the grant           Costs (10% of          to be paid using        the grantee as
    budget              direct costs)           grant funds               a match
  $12,499,398            $1,249,939               $755,231               $494,708
Source: Financial Clearance Memorandum

Financial Status Reports and Progress Reports

Financial Status Reports

      In order to determine the timeliness and accuracy of the Financial
Status Reports (FSR) or Federal Financial Reports (FFR), as shown in Exhibit
6, we examined all nine FSR/FFRs submitted by CCT for
Grant No. 2009-ST-B9-0098. 4 We compared the FSR/FFR due dates, as
determined based on the requirements in the OJP Financial Guide, to the
submission dates and found that they were generally submitted in a timely
manner However, FFR No. 3 was 24 days late.

Exhibit 6: FSR/FFR Timeliness
           PERIOD    REPORT DUE                    DATE          FSR OR
 NO.       ENDING       DATE                     SUBMITTED        FFR         DAYS LATE
   1        09/30/09          11/14/09           11/16/09          FSR             2
   2        12/31/09          01/30/10           01/06/10          FFR             0
   3        03/31/10          04/30/10           05/24/10          FFR            24
   4        06/30/10          07/30/10           07/29/10          FFR             0
   5        09/30/10          10/30/10           10/28/10          FFR             0
   6        12/31/10          01/30/11           01/20/11          FFR             0
   7        03/31/11          04/30/11           04/29/11          FFR             0
   8        06/30/11          07/30/11           07/27/11          FFR             0
   9        09/30/11          10/30/11           10/27/11          FFR             0
Source: Grants Management System



       4
          Beginning October 1, 2009, Financial Status Reports (SF-269A) became Federal
Financial Reports (FFR-425) with due dates shortened to 30 days versus 45 days after quarter
end date. FFRs must be reported online in the Grants Management System.

                                            12
      To determine the accuracy of the FSR/FFRs we compared the CCT’s
actual expenditures as recorded in the general ledger to those reported in
the FSR/FFRs. As shown in Exhibit 7, we found that the actual expenditures
for each reporting period as recorded in the general ledger did not match the
reported amounts on the FSRs. The expenditures for FFR Nos. 2, 3, 4 and 9
were slightly overstated or understated. The expenditures reported in FFR
Nos. 6 and 7 were significantly overstated, and the expenditures in FFR Nos.
5 and 8 were significantly understated.

Exhibit 7: FSR/FFR Accuracy Quarterly
                                                      EXPENDITURES
            REPORT PERIOD       EXPENDITURES         PER ACCOUNTING      PERIOD
  NO.          ENDING              PER FSR               RECORDS.      DIFFERENCE
   1          09/30/09          $       -             $       -     $        -
   2          12/31/09                  -                   3,296         3,296
   3          03/31/10               6,341                  4,818       (1,523)
   4          06/30/10               2,640                  3,299           659
   5          09/30/10           1,838,237              2,026,487      188,250
   6          12/31/10           1,126,435                935,868     (190,567)
   7          03/31/11             997,070                490,892     (506,178)
   8          06/30/11           1,590,473              2,096,536      506,063
   9          09/30/11           2,325,509              2,325,666           157
Source: Grants Management System and Chippewa Cree Tribe General Ledger

      We discussed these discrepancies with the Grants Manager who stated
that the reason for these discrepancies had to do with a post quarter-ending
journal entry in the first instance for the period ending September 30, 2010.
The second instance involved the advance payment of an invoice that carried
over to the next reporting period.

      We also discussed with the Grants Manager the lack of supporting
documentation for the amounts reported on the FSR/FFRs. According to the
OJP Financial Guide, the FSR/FFRs contain the actual expenditures and
unliquidated obligations incurred for the reporting period and cumulative for
the award in accordance with their accounting system. 5 In our judgment,
each FFR should have supporting documentation that explains any deviations
from the quarterly general ledger summary for the corresponding reporting
period. The Grants Manager acknowledged the problem and stated she
would attempt to correct the situation, with the cooperation of the finance
department.

        5
         The Office of the Chief Financial Officer (OCFO) 2011 Financial Guide also requires
actual expenditures on the SF-425 Federal Financial Report (FFR).

                                             13

       As shown in Exhibit 8 for the cumulative totals of the FSRs and the
general ledger, reporting periods 5 and 7 had significant discrepancies, one
overstated and the other understated, and periods 6 and 8 indicate those
discrepancies were essentially corrected the following quarter. Although
there were some minor discrepancies in the other periods, they were not
significant, and in period 8, these timing differences balanced. The
discrepancy in period 9 was due to a bank charge that had not yet been
reversed.

Exhibit 8: FSR/FFR Accuracy Cumulative
                                                ACCOUNTING
                                 FSR               RECORD
         REPORT PERIOD       CUMULATIVE         CUMULATIVE         CUMULATIVE
 NO.        ENDING              TOTAL               TOTAL          DIFFERENCE
  1        09/30/09          $       -         $       -          $       -
  2        12/31/09                  -               3,296             3,296
  3        03/31/10               6,341              8,114             1,773
  4        06/30/10               8,981             11,413             2,432
  5        09/30/10           1,847,218        $2,037,899            190,681
  6        12/31/10           2,973,653          2,973,767               114
  7        03/31/11           3,970,723          3,464,660          (506,063)
  8        06/30/11           5,561,196          5,561,196                -
  9        09/30/11           7,886,705          7,886,862               157
Source: Grants Management System and Chippewa Cree Tribe General Ledger

      The CCT stated it has taken steps to correct future discrepancies. We
recommend that the OJP take steps to ensure FFRs submitted by CCT are
accurate and properly supported.

Progress Reports

      We reviewed all four of the CCT’s semiannual progress reports for
timeliness, based on the requirements in the OJP Financial Guide, and
determined they were generally timely. As part of the progress report, the
grantee is required to attach a report from the BJA Performance
Measurement Tool, which is an online questionnaire specific to established
goals and objectives. However, report Nos. 2 and 4 did not include the
required semiannual report from the BJA Performance Measurement Tool
when they were originally submitted. The complete report was not
submitted until 7 months later for report No. 2 and 3.5 months later for



                                        14

report No. 4. The semiannual Progress Reports Nos. 1 and 3 included
required program performance statistical data.

Exhibit 9: Progress Report Timeliness
      REPORT
      PERIOD     REPORT      DATE     DAYS
NO. ENDING      DUE DATE SUBMITTED LATE                   COMMENTS
                                                  Complete Report
 1    12/31/09    01/30/10     01/29/10      0    Submitted
                                                  Corrected/complete report
 2    06/30/10    07/30/10     07/29/10      0    submitted 02/01/11
                                                  Complete Report
 3    12/31/10    01/30/11     02/01/11      2    Submitted
                                                  Corrected/complete report
 4    06/30/11    07/30/11     07/30/11      0    submitted 10/14/11
Source: Grants Management System

Quarterly Recovery Act Reports

      According to the Recovery Act, the recipient is required to submit
“Reports on Use of Funds” within 10 days of the end of each fiscal quarter.
These quarterly reports require both financial and programmatic data. We
reviewed all nine of the CCT’s quarterly reports for timeliness, based on the
requirements in the Recovery Act, and as shown in Exhibit 10, determined
they were generally up to 4 days late. Since this time was minimal, we are
not including a recommendation regarding this issue.

Exhibit 10: CCT’s Reports on Use of Funds
         REPORT PERIOD                                                 DAYS
 NO.        ENDING         REPORT DUE DATE         DATE SUBMITTED      LATE
  1        09/30/11           10/10/11                10/14/11          4
  2        06/30/11           07/10/11                07/14/11          4
  3        03/31/11           04/10/11                04/14/11          4
  4        12/31/10           01/10/11                01/11/11          1
  5        09/30/10           10/10/10                10/08/10          0
  6        06/30/10           07/10/10                07/09/10          0
  7        03/31/10           04/10/10                04/09/10          0
  8        12/31/09           01/10/10                01/14/10          4
  9        09/30/09           10/10/09                10/06/09          0
Source: Grants Management System




                                      15

      Our review of the content of the reports did not reveal any significant
discrepancies.

Compliance with Grant Requirements

      To determine if the CCT complied with the special conditions of the
grant, we reviewed the award documentation and identified what we believe
to be the most critical special conditions placed on the grantee. We
surveyed CCT officials regarding the special conditions identified in the
award documentation and determined that the CCT generally complied with
the required special conditions tested.

      However, in verifying the solicitation, bid, and award process for the
engineering and architectural contractor as defined in the award special
condition No. 6, which requires bid bonds, performance bonds, and payment
bonds for all contracts over $100,000, CCT was unable to provide adequate
documentation to support compliance. According to the Grants Manager,
the previous project manager left the CCT in February of 2010, and
apparently took all of the contract records in addition to erasing the
computer drive. As a result, we were unable to verify compliance with the
special condition. We recommend that the CCT take steps to ensure
complete records are maintained of all solicitation, bid, and contract award
documents in support of special conditions.

Program Performance and Accomplishments

      According to the award documentation, the goals and objectives of
Grant No. 2009-ST-B9-0098 were to enhance the CCT’s public safety,
detention, and corrections capabilities through construction of a new
multi-purpose justice facility that is culturally appropriate for its unique
population, responsive to community needs, secure, properly equipped, and
compliant with Bureau of Indian Affairs standards. To accomplish this goal,
the objective was to construct a 38,570 gross square foot, single-tribe
multi-purpose justice center to house CCT’s Adult Correction, Juvenile
Detention, and Law Enforcement Departments.

      During a site visit conducted in August 2011 by the BJA contractor
Alpha Corporation, the report states, “Alpha continues to note schedule
slippage. The projected completion date of September 30, 2011 will not be
achieved as stated in the last report, and based on the site inspection,
substantial completion may not occur until early spring 2012”. CCT stated
that the delay was due to a flood which occurred in 2010 causing the project



                                      16

to run behind schedule. CCT submitted a grant adjustment notice to the BJA
and was approved to extend the project period to June 30, 2012.

Monitoring Contractors

      The CCT Grants Manager monitors the contractors using a variety of
tools to monitor performance including C4 quarterly reports, engineering
weekly reports, and reports from the ICON construction manager. ICON is
responsible for the design and oversight of construction, and verified
invoices and tracks progress to grant objectives. Additionally, CCT
processors were assigned for each award to perform a complete review of
every invoice package and to verify all paperwork and signatures are
obtained prior to releasing a check.

Conclusion

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported and in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant, and to determine program performance and
accomplishments.

      In conclusion, during the testing of internal controls, we noted two
discrepancies from the most recent Single Audit report for the fiscal year
ended September 30, 2010. One finding related to the grant award
concerning the internal controls over manufactured goods purchased with
American Recovery and Reinvestment Act funds. According to the Recovery
Act award requirements for the construction of a building, all iron, steel, and
manufactured goods are required to be produced in the United States. Since
CCT did not have any policies or procedures to ensure that this provision
was followed, the auditors considered this a finding. This finding was later
remedied and the CCT was able to provide us with signed certifications from
its vendors and contractors ensuring that they were in compliance.

      The audit report also contained an internal control finding concerning
the lack of segregation of duties, specifically, concerning bank reconciliations
prepared by the same employees that prepare deposits, receive cash and
prepare entries for the receipt of cash; accounts receivable sub-ledgers not
being reconciled to the trial balance in a timely manner; and employee loans
not being properly approved. The bank reconciliations portion is the only
aspect of the finding related to our audit. We interviewed finance personnel
and determined that CCT had developed practices to adequately separate
duties related to bank reconciliations.


                                      17

       In addition to reviewing previous single audits, we also reviewed the
CCT’s financial management system to assess risk. We performed a limited
review of the grantees record keeping, procurement, receiving, payment,
and payroll procedures, and found that detailed procedures outlining the
systematic instructions for most grant fund administration processes such as
performing bank reconciliations and accounts payable were unavailable. In
our transaction testing, although we did not find any dollar related
deficiencies; we observed some documents, such as the Application and
Certification for Payments, were missing information, such as a signature
and dates. We also found that documents to support C4’s costs, which are
based on the percentage of work completed, were not maintained with the
documentation for the costs. Both of these issues were subsequently
addressed and appear to have been corrected. Additionally, we found that
supporting documents for drawdowns and FSR/FFRs were not maintained.
Overall we provide four recommendations to address these issues.

Recommendations

     We recommend that the OJP:

  1. Ensure the CCT develops detailed procedures outlining systematic
     instructions for clerical processes such as performing bank
     reconciliations and accounts payable related to administration of grant
     funds.

  2. Ensure drawdowns requested by the CCT are accurate and properly
     supported.

  3. Ensure the FFRs submitted by the CCT are accurate and properly
     supported.

  4. Ensure the CCT maintains complete records of all solicitation, bid, and
     contract award documents in support of special conditions.




                                    18

                                                                 APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant. The objective of our audit was to review
performance in the following areas: (1) internal control environment,
(2) drawdowns, (3) grant expenditures, including personnel and indirect
costs, (4) budget management and control, (5) matching, (6) property
management, (7) program income, (8) financial status and progress reports,
(9) grant requirements, (10) program performance and accomplishments,
and (11) monitoring of subgrantees and contractors. We determined that
property management, program income, and subgrantees were not
applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of the grant on July 1, 2009, through September 30, 2011. This was an
audit of Recovery Act, Correctional Facilities on Tribal Lands Discretionary
Grant Program Grant No. 2009-ST-B9-0098. The CCT had a total of
$7,886,643 in drawdowns through September 30, 2011.

      We tested compliance with what we consider to be the most important
conditions of the grant. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing for grant
expenditures. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grant reviewed, such as
dollar amounts or expenditure category. We selected a sample of 25 grant
expenditures for Grant No. 2009-ST-B9-0098. This non-statistical sample
design does not allow projection of the test results to the universes from
which the samples were selected.




                                      19

      In addition, we reviewed the timeliness and accuracy of financial
reports and progress reports and evaluated performance to grant objectives;
however, we did not test the reliability of the financial management system
as a whole.




                                    20

                                                                                                       APPENDIX II

                            CHIPPEWA CREE TRIBE RESPONSE
                                 TO THE DRAFT REPORT



The Chippewa Cree Tribe of the Rocky Boy's Reservation
Phone: (406) 395-4478 or 4210 - Finance OHice                                                   31 Agency Squ3re
        (406) 395-4282 or 4321 - BUSiness Committee                                     BOI Elder, Monlana 59521




            Monday, July 02, 2012

            David M. Sheen
            Regional Audit Manager
            Office of the Inspector General
            U ,S. Departmenl of Justice
            1 120 Lincoln Street, Suite 1500
            Denver, CO 80203

            Dear Mr. Sheen,

           The Chippewa Cree Tribe is in receipt of the draft audit report dated June 12,2012, which
           was completed by the Office of Inspector General on grant number 2009-ST-B9-0098.
           After full review of the Audit the Chippewa Cree Tribe concurs with the
           recommendations and has fonnally responded 10 the reconunendations as outlined on
           page 19

           We would like to thank you for your time in completing the review and herby submit the
           following responscs to your recommendations. (fyou need any further infonnalion please
           do not hesitate to contact me.


            Sincerely,



           Bruce Sunchild, Sf.
           Chairman
           Chippewa Crec Tribe of the Rocky Boy' s Reservation of Montana
           31 Agency Square
           Box Elder. MT 59521

           Enclosure
           CC : Charlene Saddler




                                                      21

Chippewa Cree Tribe
           '0
RespuRse OIG Audit Reeommcnda.iuns
Triblll Justice Cenlt' r Construction Projcct
G ran. number: 2009-ST-89-0098

RECOMMENDATION # 1:

       "Ensure the CCT develops detailed procedures outlining systematic instructions for
       clcr'it:al pro(;esscs such as performing bank reconciliation 's and accounts payable related
       to administration of grant funds. "

RESPONSE

        The Chippewa Cree Tribe concurs with this finding und updated the organization
structure and improved procedures by writing procedures for each clerical position in Fi nullcc.
All duties relatt->d to each position wi ll be readily updated in the event of system changes. New
hires or changes in starr wiJl be rt:quired to sign lin acknowledgement fonn that infonns them of
daily responsibilities and duties assigned to them.

RECOMMENDATION #2:

       "Ensure drawdO'''lls requested by the eCT are acc urate and properly supported."

RESPONSE::

        We concur with this finding and have taken steps to streamline documentation. The
drawdown requests w ill have support attached to a foml that identifies Ihe amoun t req uested and
dale requested. Support will include expenditure reports, ap pl icable invoices, and any other
forms of financial documents such as purchase order requests or eheck requests.

RECOM MEN DATION #3:

       "Ensure the FFRs submitted by the eCT are aCCUnlle and properly supported."

RESPONSE

        We concur wilh this fi nding. The Grants Manager for this project has revised the program
report to identifY a quarterly tOlal when reporti ng financ ial expenditures to el iminate error;;. The
report for tOlal expenditures will be attached and in the grant fil e.

RECOMMENDATION #4:

       " Ensure the CCT maintains complete records of all solicitation, bid, and contract awa rd
       documents in support of special conditions."




                                                 22

RESPONSE

The Chippewa C ree Tribe concurs \vith this finding. The process of advertisement, bid proposals
and award documents \vere adhered to. however, former Personnel that had oversight in this
department did nO leave the records as part orthe grant lile. The Chippcwa Cree Tribe has
                   I
drafted Policies, proc(.>dures. and discipl inary actions re lmed to the Grant Reporting
requirements. The Compl iance Department will establi sh a checkl ist ofgraot requirements and
ensure any special conditions are met and the Projcct Director will be held accountable to ensure
documents are maintained . The Chippewa Cree Tribe has a Tribal Procurement policy that
addresses the bid and records retention for all special conditions.




                                              23

                                                                                                    APPENDIX III
                     OFFICE OF JUSTICE PROGRAMS
                    RESPONSE TO THE DRAFT REPORT

                                                      U.S. Depa r t m ent of Justice

                                                      Office of.Juslice Programs

                                                     Office ofAudit, ksessmenl, and Management




MEMORANDUM TO:                 David M. Sheeren
                               Regional Audit Manager
                               Denver Regional Audit Office
                               Office oflbe Inspector General

FROM:                          Maureen    ~ Hen
                                                 t1 e,tx:rg
                               Director     V\o\.7\      ~~
SUBJECT:                       Response to the Draft Audit Report, Audit ofthe Office ofJustice
                               Programs, Bureau ofJustice Assistance, Grant Awarded to the
                               Chippewa Cree Tribe of the Rocky Boy 's ReServalion of Montano

This memorandum is in response to your correspondence, dated June 12, 2012, transmitting the
subject dmft audit report for the Chippewa Cree Tribe (CCT) of the Rocky Boy' s Reservation.
We consider the subject report resolved and request wri tten acceptance ofthis action from your
office.

The draft audit report contains four recommendations no questioned costs. The following
is the Office of Justice Programs' (OJP) analysis orthe dmft audit report recommendations. For
ease of review, the recommendations are restated in bold and are fo llowed by our response.

1.     W e r ecommend that O J!' e nsu re t h e CCT develops deta iled proce du r es outlining
       system atic instruc tions for cle rical processes, suc h as p erfo rming bank
       reconcilia tions a nd acc ounts payable, r ela ted to t he a dminis tra tion of gr a nt fun ds,

       We agree with the recommendation. We will coordinate wilh the CCT to ensure they
       develop detailed procedures outlining systematic instructions for clerical processes, such
       as performing bank reconciliations and accounts payable, related to th e administration of
       Federal grant funds.

2,     W e recommend tha t OJP ensure tha t drawdowns requested by the C(..'T a re
       a ccu natc a nd prope rly s upported.

       We agree w ith the recommendaeion. We will reque~t that the CCT provide a copy of
       procedures implemented to ensure that drawdowns arc accurate and properly supported.




                                                  24

3.     We recommend tbat OJP ensure that Federal Financial Reports (FFR) submitted
       by the CCT are accurate and properly supported.

       We agree with the recommendation. We will request that the CCT provide a copy of
       procedures implemented to ensure that FFRs arc accurate and properly supported.

4.     We recommend that OJP ensure that the CCT maintains complete records of a ll
       solicitation, bid, and contract award documents in support of special conditions.

       We agree with the recommendation. We will coordinate with the CCT to obtain a copy
       of procedures implemented to ensure that complete records of all solicitation, bid, and
       contract award documents are maintained. in support of special conditions.

We appreciate the opportunity to review and comment on the dmfi audit report. If you havc any
questions or require additional information, please contact Jeffery A. Haley. Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Tracey Trautman
       Acting Deputy Director for Programs
       Bureau of Justice Assistance

       Amanda LoCicero
       Audit Liaison
       Bureau of Justice Assistance

       Dara Schulman
       Grant Program Specialist
       Bureau of Justice Assistance

       Louise Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20120918




                                              25

                                                               APPENDIX IV

               OFFICE OF THE INSPECTOR GENERAL

          ANALYSIS AND SUMMARY OF ACTIONS NECESSARY

                     TO CLOSE THE REPORT


      The OIG provided a draft of this audit report to the Office of Justice
Programs (OJP) and the Chippewa Cree Tribe (CCT). The OJP and CCT
responses are incorporated in Appendices II and III respectively of this final
report. The following provides the OIG analysis of the response and
summary of actions necessary to close the report.

Recommendation Number:

1.	   Resolved. OJP concurred with our recommendation to ensure the
      CCT develops detailed procedures outlining systematic instructions for
      clerical processes such as performing bank reconciliations and
      accounts payable related to administration of grant funds. This
      recommendation can be closed once the CCT has provided detailed
      procedures for clerical processed relating to accounting for federal
      funds.

2.	   Resolved. OJP concurred with our recommendation to ensure the
      CCT drawdowns are accurate and properly supported. This
      recommendation can be closed once the CCT has provided
      implemented procedures to ensure that drawdowns are accurate and
      properly supported.

3.	   Resolved. OJP concurred with our recommendation to ensure
      Federal Financial Reports (FFRs) submitted by the CCT are accurate
      and properly supported. This recommendation can be closed once the
      CCT has provided implemented procedures to ensure that FFRs are
      accurate and properly supported.

4.	   Resolved. OJP concurred with our recommendation to ensure the
      CCT maintains accurate and complete support documents for all
      solicitation, bid, and contract award documents in support of special
      conditions. This recommendation can be closed once the CCT has
      provided implemented procedures to ensure solicitation, bid, and
      contract award documents in support of special conditions are
      accurate and complete.




                                      26

